V

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
100 EAST FIFTH STREET, ROOM 540
POTTER STEWART U.S. COURTHOUSE
CINCINNATI, OHIO 45202-3988

Deborah S. Hunt
Clerk

Tel. (513) 564-7000
www.ca6.uscourts.gov

Filed: May 12, 2020
Mr. Gary Todd Bradbury
Office of the U.S. Attorney
260 W. Vine Street, Suite 300
Lexington, KY 40507-1612
Mr. Patrick F. Nash
Nash Marshall
129 W. Short Street
Lexington, KY 40507
Mr. Charles P. Wisdom Jr.
Office of the U.S. Attorney
260 W. Vine Street, Suite 300
Lexington, KY 40507-1612
Re: Case No. 19-5702, USA v. Martez Edwards
Originating Case No. : 5:17-cr-00115-2
Dear Sir or Madam,
The Court issued the enclosed Order today in this case.
Sincerely yours,
s/C. Anthony Milton
Case Manager
Direct Dial No. 513-564-7026
cc: Mr. Robert R. Carr
Mr. Martez LaJuan Edwards
Enclosure
Mandate to issue

0c

k.

’S

NOT RECOMMENDED FOR PUBLICATION
No. 19-5702
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
UNITED STATES OF AMERICA,
Plaintiff-Appellee,
v.

MARTEZ LAJUAN EDWARDS,
Defendant-Appellant.

)
)
)
)
)
)
)
)
)
)
)

FILED

May 12, 2020
DEBORAH S. HUNT, Clerk

ON APPEAL FROM THE UNITED
STATES DISTRICT COURT FOR
THE EASTERN DISTRICT OF
KENTUCKY

ORDER
Before: GRIFFIN, KETHLEDGE, and STRANCH, Circuit Judges.

Martez LaJuan Edwards appeals his judgment of conviction and 180-month sentence for
drug offenses. This case has been referred to a panel of the court that, upon examination,
unanimously agrees that oral argument is not needed. See Fed. R. App. P. 34(a).
A federal grand jury returned a nineteen-count superseding indictment against Edwards
and six other defendants, charging him with conspiracy to distribute 100 grams or more of a
mixture or substance containing a detectable amount of heroin and a mixture or substance
containing a detectable amount of fentanyl, in violation of 21 U.S.C. §§ 841(a)(1) and 846 (Count
1), and possession with intent to distribute 100 grams or more of a mixture or substance containing
a detectable amount of heroin, in violation of 21 U.S.C. § 841(a)(1) (Count 14). After a three-day
trial, during which three of his co-defendants testified, the jury found Edwards guilty on both
counts.

No. 19-5702
-2 -

At sentencing, the district court applied the career offender guideline to calculate
Edwards’s guidelines range as 262 to 327 months of imprisonment based on a total offense level
of 34 and a criminal history category of VI. See USSG § 4B1.1. After considering the relevant
sentencing factors under 18 U.S.C. § 3553(a), the district court granted a downward variance from
the guidelines range and sentenced Edwards to 180 months of imprisonment followed by ten years
of supervised release.
This timely appeal followed. Edwards’s counsel has filed a brief and a motion to withdraw
in accordance with Anders v. California, 386 U.S. 738 (1967), asserting that, after reviewing the
record, conducting research, and corresponding with Edwards, he has concluded that the only
issues that could be raised on appeal are without merit and are frivolous. According to counsel,
Edwards wishes to raise the following arguments on appeal: (1) the search of 803 Slate Lick Road
violated his Fourth Amendment rights, (2) his arrest violated his Fourth Amendment and due
process rights, (3) the evidence was insufficient to support the jury’s verdict, and (4) he should not
have received a 3-level aggravating role enhancement under USSG § 3B1.1. Counsel states that
these issues are without merit and that an appeal asserting these issues is frivolous. Edwards
received an extension of time until December 19, 2019, to file a brief in support of his appeal.
Four months after that deadline, Edwards filed a motion for appointment of counsel and for an
extension of time to file a brief. After independently examining the entire record, see Penson v.
Ohio, 488 U.S. 75, 82-83 (1988), we grant counsel’s motion to withdraw, deny Edwards’s motion,
and affirm the district court’s judgment.
1.

Unconstitutional Search and Arrest
Edwards challenges the search at 803 Slate Lick Road in Berea, Kentucky, on the basis

that he was not one of the persons listed in the search warrant. Edwards also argues that his arrest
was unlawful because it was not preceded by a criminal complaint or by a summons which he
ignored. Because Edwards raises these arguments for the first time on appeal, we review for plain
error. See United States v. Soto, 794 F.3d 635, 655 (6th Cir. 2015). “To show plain error, a
defendant must show (1) error (2) that was obvious or clear, (3) that affected defendant’s
substantial rights and (4) that affected the fairness, integrity, or public reputation of the judicial

No. 19-5702
-3 -

proceedings.” United States v. Underwood, 859 F.3d 386, 394 (6th Cir. 2017) (quoting United
States v. Wallace, 597 F.3d 794, 802 (6th Cir. 2010)). Edwards cannot show any error, let alone
plain error.
The fact that Edwards was not named in the search warrant for 803 Slate Lick Road does
not provide a basis for challenging the search. See United States v. Ellison, 632 F.3d 347, 350 (6th
Cir. 2011); United States v. Pinson, 321 F.3d 558, 563-64 (6th Cir. 2003). “[S]earch warrants are
not directed at persons; they authorize the search of place[s] and the seizure of things, and as a
constitutional matter they need not even name the person from whom the things will be seized.”
United States v. Ellison, 632 F.3d 347, 350 (6th Cir. 2011) (second alternation in original and
citation omitted).
Edwards’s arrest did not require a criminal complaint or summons. Rather, “a warrantless
arrest by a law officer is reasonable under the Fourth Amendment where there is probable cause
to believe that a criminal offense has been or is being committed.” Devenpeck v. Alford, 543 U.S.
146, 152 (2004). Edwards does not argue—nor can he—that the officers lacked probable cause
for his arrest. Therefore, his Fourth Amendment arguments are frivolous.
2.

Sufficiency of the Evidence
Edwards argues that the evidence against him was insufficient to support a guilty verdict

as to either Count 1 or Count 14 and that the district court should have granted his motions for a
judgment of acquittal. We review de novo the denial of a motion for a judgment of acquittal based
on insufficient evidence.

United States v. Shanklin, 924 F.3d 905, 917 (6th Cir. 2019). In

reviewing a challenge to the sufficiency of the evidence, we must determine whether, “after
viewing the evidence in the light most favorable to the prosecution, any rational trier of fact could
have found the essential elements of the crime beyond a reasonable doubt.” Coleman v. Johnson,
566 U.S. 650, 654 (2012). “[W]e may not reweigh the evidence, re-evaluate the credibility of
witnesses, or substitute our judgment for that of the jury.” United States v. Bazazpour, 690 F.3d
796, 802 (6th Cir. 2012).
Count 1 alleged that, on or about August 2016 and continuing through August 8, 2017,
Edwards and others conspired to distribute 100 grams or more of a mixture or substance containing

No. 19-5702
-4-

a detectable amount of heroin and a mixture or substance containing a detectable amount of
fentanyl, in violation of 21 U.S.C. §§ 841(a)(1) and 846. “To sustain a conviction for drug
conspiracy under section 846, the government must prove beyond a reasonable doubt: (1) an
agreement to violate drug laws; (2) knowledge of and intent to join the conspiracy; and
(3) participation in the conspiracy.” United States v. Gardner, 488 F.3d 700, 710 (6th Cir. 2007).
Count 14 alleged that, on or about August 8, 2017, Edwards and others possessed with intent to
distribute 100 grams or more of a mixture or substance containing a detectable amount of heroin,
in violation of 21 U.S.C. § 841(a)(1). “To demonstrate possession with the intent to distribute a
controlled substance under § 841(a)(1), the government must prove, beyond a reasonable doubt,
that: (1) the defendants knowingly, (2) possessed a controlled substance, (3) with the intent to
distribute.” United States v. Wettstain, 618 F.3d 577, 585 (6th Cir. 2010).
Viewing the evidence in the light most favorable to the prosecution, a rational trier of fact
could have found the essential elements of Counts 1 and 14 beyond a reasonable doubt. The
evidence at trial established that David Joseph Jackson, Tirell Matlock, and Edwards obtained
drugs in Detroit, Michigan, and transported the drugs to Madison County, Kentucky, where they
used the homes of local residents to store and sell the drugs. For a little over a year, beginning in
2016, they brought 200 to 500 grams of heroin from Detroit to Madison County approximately
every other week. Law enforcement officers conducted sixteen controlled buys of heroin and
fentanyl; those controlled buys involved Jackson, Matlock, and two other co-conspirators who
testified at trial, Sue Warford and Keith Chambers. On August 8, 2017, law enforcement officers
executed a search warrant at 803 Slate Lick Road, Chambers’s residence, and located Edwards,
Chambers, and Matlock in an upstairs bedroom. Edwards was sitting in a chair beside a mini­
refrigerator, on top of which was pressed heroin, digital scales, and baggies. The officers found
more heroin located inside a safe next to the bed and in a plastic bag on a dresser, recovering more
than 500 grams of heroin from the bedroom.
In support of his argument that there was insufficient evidence to support his convictions,
Edwards focuses on the lack of evidence proving certain facts or corroborating witness testimony.
Edwards argues that there was no evidence that he was involved in the controlled buys, that no

ir

No. 19-5702
-5heroin was found on his person at the time of his arrest, and that the government did not introduce
any GPS or cell phone data to corroborate witness testimony. Although such evidence would have
bolstered the government’s case, the evidence presented by the government was sufficient to
support his convictions. Edwards also argues that there was inconsistent testimony about whether
he stored drugs at Watford’s residence and about when he came to Kentucky prior to his arrest.
But, “to the extent this testimony may be viewed as inconsistent, any conflicts in the evidence
must be resolved in favor of the United States on appeal.” United States v. Rodgers, 109 F.3d
1138, 1142 (6th Cir. 1997). To the extent that Edwards attempts to attack the credibility of his
testifying co-defendants, “[s]ufficiency-of-the-evidence appeals are no place ... for arguments
regarding a government witness’s lack of credibility.” Wettstain, 618 F.3d at 585 (omission in
original) (quoting United States v. Hernandez, 227 F.3d 686, 694 (6th Cir. 2000)).
3.

Aggravating Role Enhancement
Edwards next argues that he should not have received a 3-level aggravating role

enhancement under USSG § 3B1.1. We review the district court’s legal conclusion that a person
is a manager or supervisor under § 3B1.1 deferentially and its factual findings underlying that
conclusion for clear error. United States v. Sexton, 894 F.3d 787, 794 (6th Cir. 2018).
Section 3B1.1(b) provides for a 3-level enhancement “[i]f the defendant was a manager or
supervisor (but not an organizer or leader) and the criminal activity involved five or more
participants or was otherwise extensive.” Edwards does not dispute that the criminal activity in
this case involved five or more participants, instead objecting to the conclusion that he was a
manager or supervisor. To qualify for the enhancement, the defendant must have managed or
supervised “one or more other participants.” USSG § 3B1.1, cmt. n.2. Courts consider the
following factors in determining whether to apply the aggravating role enhancement:
the exercise of decision making authority, the nature of participation in the
commission of the offense, the recruitment of accomplices, the claimed right to a
larger share of the fruits of the crime, the degree of participation in planning or
organizing the offense, the nature and scope of the illegal activity, and the degree
of control and authority exercised over others.
USSG § 3B1.1, cmt. n.4.

No. 19-5702
-6Edwards contends that the evidence presented at trial suggested that he controlled or
managed assets (the drugs) rather than other participants and that management or supervision of
assets does not support an aggravating role enhancement. See United States v. Anderson, 795 F.3d
613, 617 (6th Cir. 2015). In overruling Edwards’s objection to the enhancement, the district court
found that he participated in planning and organizing the offense and exercised some degree of
control over other people, noting that he paid the courier to transport drugs and sent drugs to
Warford’s house for storage purposes. The district court did not err in overruling Edwards’s
objection and applying the enhancement. In any event, the 3-level aggravating role enhancement
did not affect Edwards’s ultimate guidelines range, which was calculated using the career offender
guideline. See USSG § 4B1.1.
4.

Edwards’s Pro Se Motion
Edwards has filed an untimely motion for appointment of counsel and for an extension of

time to file a brief. According to his pro se motion, Edwards believes that he has the following
appellate issues: (1) he wanted to testify at trial, but his attorney advised him not to testify; (2) his
Fourth Amendment rights were violated; and (3) his co-defendants lacked credibility. Edwards’s
second and third issues were addressed above. As for Edwards’s first issue, “[a] defendant who
wants to testify can reject defense counsel’s advice to the contrary by insisting on testifying,
communicating with the trial court, or discharging counsel.” United States v. Webber, 208 F.3d
545, 551 (6th Cir. 2000). Because Edwards failed to alert the district court of his desire to testify,
waiver of his right to testify is presumed. See id. To the extent that Edwards claims that counsel
provided ineffective assistance by advising him not to testify, “[ineffective assistance claims are
more properly raised in a post-conviction proceeding brought pursuant to 28 U.S.C. § 2255.”
United States v. Lopez-Medina, 461 F.3d 724, 737 (6th Cir. 2006). Edwards’s proposed issues
lack merit; we therefore deny his motion for appointment of counsel and for an extension of time
to file a brief.

K
■»>

No. 19-5702
-7-

A review of the entire record reveals no non-frivolous issues to support an appeal.
Accordingly, we GRANT counsel’s motion to withdraw, DENY Edwards’s motion, and
AFFIRM the district court’s judgment.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

Case: 19-5702

Document: 24

Filed: 10/29/2019

Page: 8

STATEMENT OF SUBJECT MATTER
AND APPELLATE JURISDICTION

This

is

an

appeal

from

a

Judgment

of

the

United

States

District Court for the Eastern District of Kentucky at Lexington,
in Criminal Case No. 17-CR-115.
34).

(Judgment, DE# 328, Page ID# 1928-

Subject matter jurisdiction existed in the

Edwards was charged with and convicted of a violation

because Mr.

of 21 U.S.C. § 846

(conspiracy to distribute heroin and fentanyl)

(Count 1) and 21 U.S.C. § 841(a) (1)
intent to distribute)
56,

Edwards

the
was

jury's

(possession of heroin with the
(Superseding Indictment,

(Count 14).

Page ID# 280-89;

Based on

Verdict Form,
verdict

sentenced

to

a

of
term

DE #267,

guilty
of

(Judgment, DE# 328, Page ID# 1928-34).
was filed.

District Court

as

180

Page ID#
to both

months

DE#

1139-40) .

counts,

Mr.

incarceration.

A timely notice of appeal

(Notice of Appeal, DE# 329, Page ID# 1935) . This appeal

is taken pursuant 28 U.S.C. § 1291 and Rule 3(a)

and 4(b)

of the

Federal Rule of Appellate Procedure.

1

9

Case: 19-5702

Document: 24

Filed: 10/29/2019

Page: 10

STATEMENT OF THE CASE

This is a criminal case wherein Mr. Edwards was charged with
conspiracy

to

possession

with

distribute
the

heroin

intent

(Superseding Indictment,

to

and

fentanyl

distribute

DE #56,

(Count

heroin

(Count

Page ID #280-85).

and

1)

14) .

After a jury

trial, Mr. Edwards was convicted 'on both counts.

(Verdict Form,

DE

to

#267,

Page

ID

#1139-40) .

incarceration of 180 months.
39) .

He

was

(Judgment,

sentenced
DE #328,

a

term

of

Page ID #1928-

Mr. Edwards has requested that the undersigned raise several

issues on appeal,

and these issues are set forth in this Anders

brief.
On August 8,

2017 detective Douglas Cole and other officers

executed a search warrant at 803 Slate Lick Rd. in Berea, Kentucky.
(Transcript of Trial, DE #315, Page ID #1549-50).
encountered

Mr.

Edwards,

along

with

two

of

Law enforcement
his

eventual

codefendants, Donald Keith Chambers and Tirell DaShawn Matlock in
/*
a bedroom along with a substantial quantity of heroin.

(Id.

at

The three men were then arrested.

(Id.

at

Page ID #1551-54).
Page ID #1560).
On October 5,
several

2017,

codefendants

for

a Grand Jury indicted Mr.
multiple

counts

Edwards and

relating

to

drug

trafficking. Mr. Edwards was charged in two counts: conspiracy to

3

Case: 19-5702

distribute

heroin

Document: 24

(Count

1)

Filed: 10/29/2019

Page: 11

and possession with the

distribute heroin (Count 14).

(Indictment, DE #1,

intent

to

Page ID #1-8).

A detention hearing for Mr. Edwards was conducted on October
16,

2017 during which the Court heard testimony from task force
(Transcript of Detention Hearing, DE #150,

officer Elisha Morris.
Page

ID

Subsequent

#428-40) .

Edwards was ordered detained.
DE #38,

to

the

detention

hearing,

Mr.

(Order of Detention Pending Trial,

Page ID #80-86).

Mr. Edwards's jury trial was conducted on March 11-13, 2019) .
DE #261,

(Minute Entry for a Jury Trial,
#1091-93) .

262

and 263,

Page

ID

The United States presented the testimony of numerous

witnesses, including detective Cole (Transcript of Trial, DE #315,
Page ID #1530-79;

Transcript .of Trial,

DE #316,

Page

ID #1585-

1603), detective Joseph Lucas (Id. at Page ID #1604-15);and three
of Mr. Edwards'

codefendants, Alisa Suzanne Warford

ID #1623-71), Mr. Chambers

(Id. at Page ID #1671-1707)

Joseph Jackson (Id. at Page ID #1749-87).
Rule 29 motion on Mr.

Edwards'

DE #316,

behalf both at the close of the

Page ID #1789-90;

Page ID #1834-35).
and

the

matter

deliberations,

(Transcript of

Transcript of Trial,

DE #317,

The trial court overruled the Rule 29 motions

was

the

and David

Defense counsel made a

government's case and at the close of all proof.
Trial,

(Id. at Page

submitted

to

the

jury.

jury returned verdicts

(Id.).

After

of guilty as to both

4

^7^

Case: 19-5702

counts (Count 1 and 14)

Document: 24

Filed: 10/29/2019

Page: 12

in which Mr. Edwards was named.

(Verdict

Form, DE #267, Page ID #1139-40).
Prior to sentencing,
the

sentencing

guideline

defense counsel filed an objection to
computations

contained

within

the

presentence investigation report, arguing that Mr. Edwards should
not be assessed three levels as a "manager or supervisor" in a
criminal activity that involved five or more participants or that
was

otherwise

extensive.

Investigation Report, DE #309,

(Objections

to

Draft

Page ID #1367-71) .

Presentence

At sentencing,

the District Court overruled this objection and determined that
Mr.

Edwards'

advisory

guideline

range

was

262

to

327

months.

(Transcript of Sentencing, DE #340, Page ID #2060 and 2069) .

The

District Court, however, decided to grant Mr. Edwards' request for
a downward variance and sentenced him to a term of 180 months.
(Id.) .

Mr. Edwards directed counsel to file an appeal from this

judgment, and this appeal now follows.

5

■P3 5

